•r>
:■ i

No.T93n tlje
Supreme Court of tlje fintteb States

ANDRZEJ MADURA
ANNA DOLINSKA-MADURA
Petitioners
v.
BANK OF AMERICA N.A. FKA.
BAC HOME LOAN SERVICING, L.P., ET AL.,
Respondents

FILED
AUG 1 3 2019
, SUPREEMEFCOURTLMgK

On Petition for a Writ of Certiorari to the
United States Court of Appeals
For the Eleventh Circuit

PETITION FOR WRIT OF CERTIORARI

Andrzej Madura, Pro Se,
Anna Dolinska-Madura, Pro Se,
6320 14th Street West, Lot 11
Bradenton, Florida 34207
Ph. No.:(94l)-264-4709

received
SEP " ^ 2019

1

The mortgage purportedly foreclosed had been
rescinded in accordance with TILA long prior to
commencement of the foreclosure suit. Without
defensive pleading or underlying proof, the district
court entered July 17, 2013 Summary Judgment of
Foreclosure, concluding that the petitioners’ May 23,
2001 rescission notice sent the creditor Countrywide
Home Loans Inc., was “patently frivolous” as was not
sent to Bank of America NA (Bana) a stranger to the
petitioners who had no connection to their loan until
its purported purchase eight years after they
effected loan rescission. The following issues were
essential to disposition of the foreclosure case, but
were never actually the subject of competent proof in
this action:
QUESTIONS PRESENTED
Whether, under the Truth in Lending Act and
controlling case authority, the lender or creditor,
after receipt of timely notice of rescission of a non­
purchase money mortgage, given by the borrower,
may decline to follow the prescribed procedure under
sec 15 U.S..C 1635(b) provided for challenging or
effectuating the rescission, and thereafter simply
proceed with foreclosure of the rescinded mortgage,
without pleading or proof of any deficiency in the
rescission notice, and without pleading or proof of
the subject matter jurisdiction of the chosen
foreclosing court.
Whether, under the Truth in Lending Act and
controlling case authority, the foreclosing court,
upon the borrowers’ defense that said court lacked
subject matter jurisdiction to foreclose the previously
duly rescinded mortgage, can declare the rescission
notice to be insufficient (or “patently frivolous”) for

1

11

the purpose without pleading or proof to that effect,
first having been offered by the foreclosing creditor
a) where the rescission notice was timely given to
the proper party, b) where it described TILA
deficiencies as its basis, c) where it requested
“invalidation” of the loan, though no magic words are
required, d) where the district court examined, and
had opined that the borrowers rescission notice was
timely, showed their intention to rescind, opined
that the lender failed to disclose required TILA
disclosures, and opined that Maduras had “arguably
rescinded”, e) where the creditor made no response
to the borrowers’ rescission notice, timely or
otherwise, as required by the Act, f) where the
creditor made no attempt, belated or otherwise, to
secure relief from its delinquency and g) where the
creditor made no pleading and offered no proof that
the notice was deficient.
Whether a final judgment entered foreclosing the
said mortgage under circumstances described
violates the borrowers right to due process under the
5th and 14thamendments to the US Const, where the
purported security no longer constituted any lien on
the subject property foreclosed;
Whether, following the borrowers rescission voiding
the security interest of the mortgage, the borrowers’
repayment of the principal of the loan, which TILA
would have obligated them to do, but done so
voluntarily, as a result of the creditors failure to
comply with its TILA obligations, could operate as
some waiver of rescission or ratification of the
creditors inaction, so as to effectively revive the
mortgage voided by the prior TILA notice, thereby
permitting foreclosure of the “revived” mortgage.

IV

TABLE OF CONTENTS

Page

QUESTION PRESENTED FOR REVIEW,
TABLE OF CONTENTS,

1

TV

TABLE OF AUTHORITIES,

vi

PETITION FOR WRIT OF CERTIORARI,

1

OPINIONS BELOW,

1

JURISDICTION,

1

STATUTORY PROVISIONS INVOLVED,

1

INTRODUCTION,

1

STATEMENT OF THE CASE,

3

REASONS FOR GRANTING THE WRIT,

11

I. The Eleventh Circuit twice decided the important
question of federal TILA, which has not been, but
should be settled by this Court that the borrowers’
post-rescission repayment of the principal of the loan
operates as a waiver of TILA rescission effectively
“reviving” the mortgage voided by the prior TILA
notice, thereby permitting foreclosure of
12
the“revived”mortgage, based on forged note,
II. The district court and the 11th Circuit failed to
require proof of the challenged subject matter
jurisdiction, despite the rule that, once challenged,
subject matter jurisdiction must be proven, Main
18
v. Thiboutot, 100 S. Ct. 2502 (1980),

Ill

Whether the district court’s denial of the borrowers’
Rule 60(b)(4) motion for relief from void judgment for
the foreclosing court’s and affirming circuit court’s
lack subject matter jurisdiction for purposes of
foreclosure because the mortgage purportedly
foreclosed had been rescinded long prior to the
commencement of the foreclosure action, could be
properly disposed of by the circuit court: a) without
examination of the foreclosure case record, b)
without proof the legal existence of any mortgage,
which was the necessary subject matter of the
foreclosing court action, c) where the rescission
under TILA was a non-judicial act and where d)
there had been no proof of the existence of a valid
mortgage at the time of the foreclosure judgment or
at any time.

PAGE

TABLE OF AUTHORITIES
Anderson Bros. Ford v. Valencia,
452 U.S. 205, 219 (1981).,

15

Ashcroft v.Iqbal, 556 (U.S.) 662(2009),

35

BACFunding v. Jean Jacques,
28 So.3d 936 (2010),..

28

Daimler Chrysler Corp. v. Cuno,
547 U.S. 332 (2006),.....

19

Erie R Co. v. Tb/72p^i/2s,304,U.S.64,(l938),

35

John Hancock Mut. Life Ins Co.v. Harris Trust
&Sav.Bank, 114 S.Ct.517(l993),.............

19

Grogan v. Garner,
498 U.S.279 (1991),

19

Hauk v. JP Morgan Chase Bank USA,
552 F.3dlll4 (9th Cir.2009 ),.....

18

Jesinoski v. Countrywide Home Loans, Inc,
135S.Ct.790(2015),7,11,17,8,20, 21,23,25,30,34,35,36
Stanley v. Americorp Credit Corp,
164 F.Supp.2d 578, 584(D, Md.200l)

25

Sherzer v.Homestear Mortg.Serv.
,
707F.3d 255, (3rd.2013),...

25

Kontrick v. Ryan,
540 U.S (2004),

17, 19, 20, 24

Vll

Lovett v.Lovett,
112 So.768 (Fla.1927)

19

Maduras v. Countrywide Home Loans Inc. et al,
2008 WL 2856813 (M.D.Fla.),
20, 22,30
Maduras v. CHL etal,
344F.Appx.509,(llth Cir.2009)

22

Maduras v. Home Loan Servicing LP, et al
,
593 F.Appx.834(l 1th Cir.2014),.......... 13, 20, 30
Maduras v. Home Loan Servicing LP, et al
No.15-12925 (llth Cir. Nov.23, 2015),

24

Maine v. Thibout,
448 US. 1(1980),.........................................

18

McDowell v. Brown
392 F 3d 1283(11th Cir.2004),

19

Pennoyer v.Neff, 95U.S.714(1878),

32

Richards v. Jefferson Cnty,bll U.S,793(l996),... 33
Sanchez v. Pereira-Castillo,
590 F. 3d 31, 4l(lst Cir. 2009)

34

Standefer v. United States,
447 U.S.10 (1980),........

21

Stanley v. Americorp Credit Corp,
164 F.Supp.2d 578, 584(D. Md.200l),

,25

V

III.The district court’s denial of the Maduras’ motion
to dismiss for lack of SMJ, and 11th Circuit’s
affirmance is arguable without merits clear
and egregious usurpation of judicial power, and
thereby creates irreconcilable conflict with other
circuits and this Court's decision in Jesinoski on the
efficiency of the TILA rescission notice given by the
21
petitioners,
IV. The Eleventh Circuit’s affirmation violated the
Maduras’ due process rights under the 14th Amend,
and is also in direct conflict with this Court's
decisions that a person not a party to judicial
25
proceedings may not be bound by its outcome,
CONCLUSION,

37

vi

vm
Student Aid Funds, Inc. v.Espinosa,
130 S.Ct.U.S.(2010),.......................

23

Town ofLantana,
Fla. v.Hoppe, 102F.2dl 18(5thCir. 19390,

19

United States v. Eon Pair Enters., Inc.,
489 U.S. 235, 242 (1989,....................

14

U.S. v. United Mine Workers ofAm.,
330 U.S.258 (1947;,.......................

18

Waisome v.eJP Morgan Chase Bank NA et al
No.16-1653 (Aug. 17, 2017),.......20, 21, 24,26
Williams v.Homestake Mortg,
968 F.2d 1137 (11th Cir. 1992)

18, 21

United States Constitution
Article III s.2,

1

5th Amendment,

1

14th Amendment,

25, 35, 36, 37

Statutes:
28 U.S.C. § 1963
28 U.S.C. § 1254(1),
15 U.S.C. § 1601 et seq,

30
1
1,37

IX

7, 13, 15, 23

15 U.S.C. § 1635,
U.S.C. § 1635 (a),........

7, 23

15 U.S.C. § 1635 (a) (b),

7, 23

15 U.S.C. § 1635 (b)

2, 5, 6, 7, 11, 15,17

Regulations^
22

12 C.F.R. § 226.23(d)(2)
12 C.F.R. § 226.23(d),

23

Restatement (Second) of Judgments
§ 29 cwt.(l982),....................

19

Fed. R. Civ. P. Rules
60 (b) (4),

1, 3, 12,14,34

Consumer Financial Protection Bureau
Commentary to 12 C.F.R. § 226.15(d)(1),

14, 16

Commentary to 12 C.F.R. § 226.23(d)(1),

14 ,16

1
PETITION FOR WRIT OF CERTIORARI
Petitioners, Andrzej Madura and Anna Dolinska*
Madura (“Maduras”), respectfully request that the
Court issue a writ of certiorari to review the
judgment of the United States Court of Appeals for
the Eleventh Circuit.
OPINIONS BELOW
The opinion of the Eleventh Circuit Court of Appeals
is an unpublished per curiam opinion (Al-9).
JURISDICTION
The judgment of the court of appeals was entered on
May 15, 2019. The jurisdiction of this Court rests on
28 U.S.C. § 1254(1)
RELEVANT CONSTITUTIONAL, STATUTORY
AND REGULATORY PROVISIONS INVOLVED
Relevant provisions of the U..S Condtitution, Truth
in Lending Act, 15 U.S.C. § 1601 et seq., and of the
Federal Reserve Board’ Regulation Z are reproduced
in Appendix 31'33.(A31'33)'
INTRODUCTION
The Eleventh Circuit affirmed denial of Rule 60(b)(4)
motion for relief from void S J of foreclosure as
entered without subject matter jurisdiction to
foreclose void mortgage, on purported three grounds1) This Court’s decision in Jesinoski has no bearing
on SJ of foreclosure as to loan rescission;
2) The district court’s and the 11th Circuit’s holding:
the Maduras’ loan rescission is “patently frivolous”as

2

May 23, 2001 intent to rescind loan was not sent to
a stranger, Bana, who had no connection to their loan;
3) The timely effected loan rescission was waived
because the current with payments Maduras after
loan rescission paid the remaining debt on the Note.
This Court, in Jesinoski, explained when rescission
was effected pursuant to TILA. However, the loan
rescission issue is overloading federal jurisprudence
with cases like this that show the inconsistency of
the district and Circuits Courts with federal TILA
statutory law and this Court’s Jesinoski decision.
The issue is whether but timely received but
ignored by the creditor nonjudicial rescission notice
under the TILAAct, renders rescission “effected” per
s. 1635(b) and this Court’s decision in Jesinoski and
whether is mandating of by the Bureau’s the
creditor’s action which if not performed, voids the
security interest.
This case presents also the district court and the
llthCircuit’s pressing, important, never settled by
this Court or Circuits issue, as to whether borrowers
current with the payments at loan rescission, by
their payments after effecting their loan rescission
towards the debt on the NOTE, waived already
effected rescission, and revived void mortgage.
Further, this case presents the district court’s and
the llthCircuit’s decisions in direct conflict of the
TILA statutory law, this Court’s Jesinoski, and all
circuits on the issue of alleged insufficiency of the
Maduras’ rescission notice. This was a basis for the
district court’s S J foreclosing the Maduras’ principal
residence, for the last 30 years their only homestead,
and for the llthCircuit’s affirmance at bar.(A8).
This was a basis for the district court’s denial motion
to dismiss foreclosure counterclaim due to its

3

subject matter jurisdiction to enter foreclosure of
void mortgage by on June 18, 2001 effected loan
rescission, ignored by the Creditor CHL(A 8).
Congressional intent in enacting the federal Truth in
Lending Act(“TILA”) was to protect consumers with
clear rescission procedures, which the Maduras
followed. Jesinoskicleared when loan rescission is
effected but the banks and lower courts are still
inconsistently applying the law this Court sought to
clarify by its decisions in Jesinoski. In summary,
this case presents an excellent vehicle for resolving
the split in authority over the set forth here issues
and over presented questions. Bana lacked legal
authority to foreclose. Res judicata or collateral
estoppel are inapplicable to the inconsistent 11th
Circuit’s orders and to void foreclosure judgment.
The foreclosure judgment was invalid, as was the
sale, because of the Maduras’ rescission. Both TILA
and this Court’s holdings in Jesinoski are clear on
this point. The Eleventh Circuit’s opinion is in
direct conflict. Decades of the misapplication of
TILA’s law prior to this Court Jesinoski should not
be followed by years of the additional misapplication
of it by the Circuits.
STATEMENT OF THE CASE
Petitioners(“Maduras”) filed Rule 60(b)(4) motion
due to the district court’s and the 11th Circuit failure
to determine challenged subject matter jurisdiction
(“SMJ”) issue pertaining to a purported mortgage
foreclosure. The challenged rulings do not comport
with the requirements of TILA, or with this Court’s
decision in Jesinoskion the subject of mortgage
rescission as a result of their inconsistent orders

4
relating to Maduras’ loan rescission notice, which
was ignored by the Creditor, Countrywide Home
Loans Inc.(“CHL”). The inconsistent decisions
disregarding federal TILA statutes this Court’s
decision in Jesinoski are continued in Opinion
below. On or about the 23rdday of May 2001, the
Maduras served notice of rescission of their loan
transaction purportedly consummated on the 26t;day
of July 2000(A9). This loan was a refinance of a
previously existing mortgage with about 7% interest.
The Maduras, mortgaged their residence to Full
Spectrum Lending Inc.,(“FSL”) a subsidiary of
Countrywide Home Loan Inc(“CHL”). The agreed
loan allowed them to repay any time without penalty
as stated in the July 26,2000 closing TILA disclosure
and the Adjustable Rate Promissory Note(“NOTE”)
They sent notice of rescission (A39) the creditor and
loan servicer, CHL, to whom they sent the first and
all subsequent loan payments and the same was
received by CHL on the 29thday of May 200l(A38)
. They rescinded the loan due to non-disclosure at
loan closing, and thereafter, oh l) a second Note,
created by CHL and operative in a subsequent
foreclosure action, with forged initials of Mr.
Madura’s on Pg.2 under the prepayment penalty,
which had not been included on the original NOTE
signed at closing; 2) the prepayment penalty1;
3) a second TILA disclosure, created by CHL, later
employed in foreclosure containing forged dated
’’signatures” of the Maduras under added
prepayment penalty. The district Judge presiding in
underlying forecloseure, judicially noticed original &
forged sets of the Note&TILA (Doc.71,441,477-1)2
Prior to loan rescission, after long investigation the

5

Prior to loan rescission, after long investigation the
Maduras located copies of forged Note and TILA in
CHL’s Title Company, and, on advice of Police and
FBI,retained Mr.Thomas Vastrick,forensic dcument
examiner, who also serviced federal & state courts
and US Postal Master. Vastrick’s Nov. 25, 2001
report revealed that the Maduras dated signatures
on the TILA disclosure and Mr. Madura’s initials in
Pg.2 of the Note were not genuine(Madura2 SJ,Id4)z
Due to further nondisclosure the Maduras sued
in Maduras v. CHL etal, 2002 CA2358 Maduralfor
fraud, forgery, loan sharking statutory usury and
RICO. Borrower, Mr. Madura was compelled to
arbitrate at National Arbitration Forum(NAF) (if he
chose to do so). He was precluded bringing claims
judicially. Until foreclosure, he had no day in courts.
Mrs.Madura amended her claims with statutory
TILA. She did not sue for non-judicial rescission per
15 USC s.l635(a)(b), which does not requiring legal
action in order for rescission be fully effective.
Rather CHL was in statutory s. 1635(b) default, for
having ignored Maduras’ rescission notice). On
01/20/2004 Mrs.Madura through the interpreter,
admitted,without CHL counsel objection, into
1 The rescission is mandated just for non-disclosure of prepayment
penalty omly. See 15 U.S.C. § 226.18 (k)(l):“ When an obligation
includes a finance charge computed from time to time by application of a
rate to the unpaid principal balance, a statement indicating whether or not
a penalty may be imposed if the obligation is prepaid in full.”
2 The 1 lt,h Circuit, confirmed: l) ‘CHL created not delivered to loan
closing Note and Tila, with prepayment, penalty, whuch were operative
in underlying foreclosure. It affirmed. July 2008 SJ in Maduras v.
Countrywide et. al, 2008 WL 2856813 (M.D.Fla.XMadura 2)’s holdings:
a) "Although there was a dispute over who signed what, an
Adjustable Rate NoteC’Note’) and a Truth in Lending ActCTJLA”)
disclosure, were executed at the closing. These documents reflect
that there was no prepayment penalty .’’Id at 2;

6

Madurai’s evidence Vastrick’s forensic report and
On 01/20/2004 Mrs.Madura through the interpreter,
admitted,without CHL counsel objection, into
Madurai’s evidence Vastrick’s forensic report and
sworn testimony of forgery, which was judicially
noticed in Madura2(DE25 there) and by Judge
Covington in foreclosure)(DE 71-1,523-1). At SJ
hearing on Cross SJmotions Circuit Judge held as to
forgery:”the Jury would have to decide”(A29), but
waited 14 months and granted SJ in CHL’s favor
’’though remains factual dispute”( as to forgery
claims)(A26). As to fraud, the court held that she did
not incur damages. It dismissed criminal usury in
excess 25% as she was not a borrower because she
did not apply for a loan but the court record
evidences that she signed the riders, the mortgage,
the Note and TILA. It dismissed the TILA claim on
limitations grounds although her amended claim in
2003 related back to May 1, 2002, the date of the
original complaint. The 2nd DCA Florida Judge
Covington,who 7 years later presiding in foreclosure,
affirmed this ”SJ.” Thus, after the Maduras repaid
the debt on the original NOTE signed in closing Mr.
Madura proceeded,husband was compelled arbitrate.
On July 24, 2007, after being compelled by the
Court, CHL, for the first time, disclosed its forged
TILA. CHL disclosed forged note in May 10, 2001
facsimile, but produced it for the first time in
Madura2 by Vice-President General Counsel Jay
Laifman at Jan.2008 deposition taken by Mrs.
Madura, pro se with the Interpreter.
Under 15 U.S.C. § 1635(b), CHL had 20 days
from the date of receipt of the May 2001 rescission
notice, within which to perform certain acts and/or to

7

file an action to determine the terms of under which
the rescinded loan transaction, specifically the
Maduras’ tender, would be completed. CHL was in
default of their obligations under Sec. 1635(b) for not
having responded to the notice and, therefore, the
rescission effected by petitioners was fully effective
from and after 20 days of its receipt on 18 June 2001,
As a result, the subject loan transaction was fully
void from and after 18June 2001 by operation of that
statute As a non-judicial rescission described in 15
U.S.C.s.163 (a)(b), no legal action on the part of the
borrowers was required in order for rescission to be
fully effective. Since the May 29, 2001 receipt of the
rescission notice, and at 20 days later June 18, 2001
s. 1635(b) statutory deadline, neither CHL or any
other entity, have taken action whether in the form
of a pleading or otherwise, which would provide a
basis for relief from the consequences of their failure
to comply therewith. CHL has taken no action
which could have forestalled, or avoided, the
rescission of the loan transaction. As a result,
without judicial relief from the consequences of its
default, the mortgage was void; no mortgage
remained to be foreclosed; and no court was
possessed of subject matter jurisdiction to render
judgment in a foreclose action regarding the subject
property, As a further consequence, in the absence of
pleading by defendant seeking to be relieved of the
consequences of its inaction, no court was possessed
of subject matter jurisdiction to rule on the issue,
since the rescission described in §1635 was a
nonjudicial act which needed no judicial validation.3
3 Rescission is not a consequence of judicial action......
...........Courts action: “has no bearing upon whether and how
borrower- rescission under § 1635(a) may occur ’’,Jesinoski 793.

8

As a result, the non-judicial rescission was not
subject to a res judicata, or claim or issue preclusion
analysis. The post rescission orders related to the
subject loan were nullities because courts lacked
subject matter jurisdiction to foreclose a mortgage
which had been voided. However, on April 23, 2007
CHL, at federal Madura2 action, not through its
attorneys but improperly by private means, sent Mr.
Madura a Default and Acceleration Notice letter
threatened him with foreclosure in case of failure
pay $8,249.88 on or before May 23, 200l(A49). Mr.
Madura, by phone and in letter reminded CHL, the
creditor, of the June 18,2001 rescission and the
agreement that post rescission payments be accrued
towards the principal of the debt on the NOTE. He
attached certified copy of May 23,2001 rescission
notice, forensic report and the transcript of Jan. 20,
2004 hearing of admitting, without CHL’s objections,
into Madurai’s evidence, the forensic report and
testimonies of forgery of CHL’s Note and TILA. The
forensic report generated in Madura2 indicated that
not decivered to the closing the Notice of Right to
Cancel contained dates not signed by the Maduras.
CHL stopped servicing, the acceleration and May
23, 2007 foreclosure(A54). This undisclosed loan
owner, apparently, liquidated rescinded loan
(A65). Three years later the Maduras received Nov.
2009 letter from Texas with a copy of improper
unauthorized payment of their 2009 real estate tax
by a stranger BACTaxServ.Corp, since its purchase
in 1989. Maduras had always, each March after tax
year, paid taxes at Tax Collector Office. Surprised,
Maduras sent BACTaxServ.Corp.and HomeLoan
Serv.L.P.letters warning of purchase or assignment
of this rescinded loan and of the forged documents

9
(A58-60). As these and following letters were
ignored, Maduras filed in Manatee Court a
complaint for statutory violation of RESPA. This
case was answered, and removed, by Bana to
M.D.Fla.Court. Despite the letters, Bana, five
months after its Dec.2011 Answer to RESPA claims,
filed counterclaim of foreclosure of void mortgage
concealing that loan was rescinded(DE77). In the
foreclosure case, Bana appeared as the Maduras’
loan owner or servicer stating that since loan closing
it had been receiving the payments from Maduras.
Later, 54 days after the discovery deadline, Bana
filed an affidavit, undisclosed in discovery, of its
employee (signed not before of public notary)
affirming, as its own, a loan history derived from the
loan history of CHL which had been generated by
Maduras actual payments to CHL for principal
payments made on the rescinded loan. This Bana
loan history falsely represented, that since loan
closing, even since 01/1986 (four years prior their
home was built) it was receiving the Maduras’ loan
payments(A52-53), which is contradicted by CHL
loan history. See result(A54,62-64). In addition,
Bana falsely stated that sent April 23, 2007 Default
Notice to Mr.Madura,yet in 2007 Bana was not even
a privy to Countrywide Home Loan Inc. who serviced
the subject loan but not on behalf of, or as a
component of, Bana.(A49).
District Judge Covington, though lacking SMJ,
apparently, was impressed by the Bana loan”
history” and entered a wrongful foreclosure
judgment twisting court’s record in nonsensical
holding:” [t] he Maduras incorrectly assert that Bank
of America failed to give proper notice of default and
acceleration. The 11thCircuit lacking SMJ affirmed

10
Based on the same plain error ‘The Bank sent the
Maduras a default letter dated April 23, 2007, giving
the Maduras until May 23, 2007, to cure the default
or face acceleration.” (Apl7) (enhanced added).
“In accordance with the acceleration clause BOA
sent the Maduras a default letter on April 23, 2007,
which notified them that the failure to cure the
default on or before May 23, 2007 would result in
acceleration of their loan and commencement of a
foreclosure proceeding. The district court concluded
BOA accelerated the loan on May 23, 2007, when the
Maduras failed cure the default”593 Fed App’xa^ 847
The issue is Maduras were also defrauded by Bana,
that somehow, due to 2008 merger with CHL Bana
somehow owned or serviced Maduras loan through
CHL despite that fact that the loan had been
rescinded in 2001 and, as a result, it was not a
property right or interest which Bana could have
acquired or succeeded to by way of its 2008 merger
with CHL. The Bana loan history was false and
misled the court. Further, Maduras were not aware
until the Aug. 1,2016 Fannie Mae’s disclosure(A50,
51) that Bana, in an underlying action, concealed
that since loan closing, at loan rescission and
thereafter, ther Maduras’ loan has been liquidated
by Fannie Mae. Thus, contrary to the 11th Circuit’s
conclusion that“Maduras have not raised any
evidence that was not considered at the time of the
final judgment”(A8), created a new situation
and courts never adjudicated these new facts.
Maduras’ verified emergency motion for Rule
37’s automatic exclusion undisclosed witness, was
denied after remaining pending for lOOdays. The
ll,hCircuit affirmed Florida and federal violation of
dueprocess rights to depose undisclosed witness’and

11
her, apparently, untrue testimony(A16) despite of
IB’s supporting unrebutted case law.
Middle District of Florida, though lacking SMJ to
foreclose a void mortgage, has entered July 17,2013
SJ of foreclosure. Judge Covington, three years after
entering SJ offoreclosure, entered an confirmation of
order of sale of the property which was the subject of
the void mortgage. In May 2017 she ordered the
eviction of the Maduras from their home of 30years.
As a result of the foregoing, they were dispossessed
of their homestead by operation of a purported
foreclosure judgment entered by a court lacking
subject matter jurisdiction from the outset.
REASONS FOR GRANTING THE WRIT
This Petition presents court conflicts on legal issues
of exceptional importance to the nation’s consumers.
Bana lacked legal authority to foreclose. The
Eleventh Circuit in this case blatantly disregarded
applicable this Court’s and its own precedents in
affirming despite this Court’s unanimous Jesinoski
decision. This Court ruling in Jesinoski, settled the
circuits split regarding the effectivness of sent the
lender borrowers’ notice of intent to rescind loan,
relying on the plain language of the TILA statute.
This is the central issue in this case as it is pari
materia to the lack of the courts’ SMJ over foreclose
of void mortgage effected by such notice. Though the
effect is also unambiguously spelled out in 15U.S.C.
§ 1635(b), courts are inconsistently ruling on this
important federal TILAprotection law. Because the
result in the case directly conflicts with this Court’s
decision in Jesinoski and federal TILA protection
law, this Court should resolve the all conflicts and
provide guidance to lower courts on this matter

12
relating to millions of consumers in the country.
The TILA protection must be followed where as here,
the Maduras effectively rescinded the loan but lost
home by invalid foreclosure, where the right to
foreclose was extinguished as a matter of law.
This case presents an excellent vehicle for resolving
continuous unability of the authorities, specifically of
the Eleventh Cicruit and its US.MD.Fla.Court, to
to answer the questions presented and to resolve an
important question of federal TILA law that has
been“decided by the Eleventh Circuit but which has
not been, but should be settled by this Court.
Further, the Eleventh Circuit decided an important
but another federal question in a way that conflicts
with relevant decisions of this Court and with
majority of the Circuits on same important matter.
I. The Eleventh Circuit twice decided the important
question of TILA, which has not been, but should be
settled by this Court that the borrowers’ post­
rescission repayment of the principal of the loan
operates as a waiver of TILA rescission effectively
“reviving” the mortgage voided by the prior TILA
notice, thereby permitting foreclosure of the
“revived” mortgage
The llthCircuit, by reporting only “‘The district
court found that Madura nullified any rescission by
continuing to make payments.”(A8), did not prove
challenged SMJ but conflicted its de novo review of
denial of Rule 60(b)(4) motion(A9) It aligned with
“Bana’s concept”(A46) repeated by the district
court(Judge Covington) (20-21). In fact Judge Fay,
and his panel decided that post-rescission payments

13
of remaining debt in the Note effectively revived the
mortgage voided by the prior TILA notice, thereby
permitting foreclosure of said“revived”mortgage.
Thus, the ll,:hCircuit entered the inconsistent
Opinion in direct conflict with the Fay Opinion
in Williams v. Homestake Mortg., 968 F.2d 1137
(llthCir.l992), the first llthCircuit’s precedent on
the same issue:
“Williams was current on her payments despite
the fact that she was not obligated to make those
payments”, atl 142 \
” Williams rescinded on October 27,1987 and still
was making payments until July 29, 1988 ”,atll38.
Thereafterthe llthCircuit, Judge Fay, delivered
inconsistent affirmance of the S J of foreclosure in
this case directly contradicting its first precedent
in Williams*the Maduras ‘ratified the loan’ by post
rescission payments2,Maduras . v. BACHome Loans
Servicing LP, 593,F.Appx.834(11th Cir.2014)at844,
despite of the Maduras’ arguments in IB, that
“reviving mortgage is not provided in §1635 statutes.
The clear language of s.1635 et seq nowhere
provides that the borrower may nullify” any
rescission” by payments towards the remaining debt
on the Note. The 11th Circuit overlooked that the
mortgage loan transaction is specifically distinctive
from general contract law. It failed to TILA the
required of text-based analysis. “Ratification” is yet
another common law concept foreign to TILA. See
this Court’s discussion in Jesinoski that TILA
rescission differs from a common law rescission. The
11th Circuit’s position shows that it relied on theory
that Maduras had somehow waived or ratified the
Countrywide Home Loan Inc. Sec. 1635 (b) default or
“inaction”; and that this somehow succeeded in

14
undoing the effect of the Maduras’ timely rescission
notice. In any event, the concept of “waiver”
under TILA is futile as rescission is effective from
service of the notice. Bana’s, the district court’s and
the lllhCircuit’s concept of “ratification” ]is
inconsistent with s.l635(b)’s of TILA, which voids
the mortgage and the interest but not the principal
on the note. The Maduras explained this partial SJ
motion(DE415-Pg.9), in Rule60(b)(4) motion at bar
and on appeal below citing the Official
Board Commentary to Reg.Z that, by being current
with the payments at loan rescission and thereafter,
they did not ratify nor revive the already rescinded
mortgage, nor did they waived rescission:
“For purpose of this section, the addition to an
existing obligation security on a consumer’s principal
dwelling is a transaction. The right of rescission
applies only to the addition of the security interest
and not the existing obligation. The interest in
property is: automatically negated, regardless of its
status and whether or not it was recorded perfected.”
§ 226.15(d)(1); 226.23(d)(1) ( enhanced added)
(Official Board Commentary to Reg.Z)
The 11th Circuit twice (in Nov. 10, 2014 affirmance
and in Opinion below) ruled in conflict with this
Courts emphasis on the importance of the plain
meaning rule, stating that if the language of a
statute or regulation has a plain and ordinary
meaning, courts need look no further and should
apply the regulation as it is written.” In most cases,
a textual reading will be dispositive. United States v.
Ron Pair Enters., Inc., 489 U.S. 235, 242 (1989).
Furthermore, “absent some obvious repugnance to
the statute, the . . . regulation implementing [TILA]

15
should be accepted by the courts.” Anderson Bros.
Ford v. Valencia, 452 U.S. 205, 219 (1981).
Thus, contrary to the position of the 11th Circuit
(A8) and the district court(A2l) and Bana(A46), a
federal loan is not a single contract as it includes the
note and mortgage but only the security interest and
fees were void upon rescission. The issue of fact, the
private non-judicial mortgage rescission may not be
revived by subsequent events, unless a courts’
intervention timely occurs within 20 days from the
receipt of rescission notice and occurs upon the
initiative of the creditor. See s. 1635(b), which voids
the mortgage only but not the debt on the note. The
district court and theCircuit, in conclusory findings,
failed to give to TILA as was
required by the text. The Maduras, were current
with loan payments at loan rescission and until the
Nov. 2006 pay-off of the debt on their original note
delivered and signed at the closing. The mortgage
and security interest and fees were void and the cost
of closing were credited due to June 18, 2001
effective loan rescission.
A clear language of s.1635 et seq nowhere
provides that borrower may nullify ’’any rescission”
by paymens towards the remaining debt on the Note.
Following this 1 lthCircuit’s concept a borrower, after
loan rescission, may keep remaining principal to the
lenders’ detriment. The 11th Circuit overlooked that
mortgage loan transaction is specifically distinctive
from general contract law. It failed to give TILA law
the required of text-based analysis. “Ratification” is
yet another common law concept foreign to TILA.
See Jesinoski that TILA rescission is differ from a
common law rescission. The 11th Circuit’s position
shows that it relied on theory that Maduras had

16
somehow waived or ratified CountrywideHome Loan
Inc. Sec. 1635(b) default or “inaction”; that somehow
succeeded in undoing the effect of the timely
rescission notice. To the extent that this concept may
not “revive” the court’s SMJ to pursue with the
rescinded mortgage, the said lllhCircuit’s “theory” is
futile. In any event, the concept of “waiver”under
the TILA is futile as rescission is effective from
service of the notice. Contrary, Bana, the district
court’s and the 11th Circuit’s concept of “ratification”
is inconsistent with s.l635(b)’s TILA Statute which
void mortgage and the interest but not the principal
on the NOTE. The Maduras explained this courts in
underlying foreclose in partial SJ motion (DE415Pg.9), in Rule 60(b)(4) motion at bar and on appeal
below citing the Official Board Commentary to Reg.Z
that, by being current with the payments at loan
rescission and thereafter, they did not ratify nor
revive the already rescinded mortgage, nor did they
waived rescission:
“For purpose of this section, the addition to an
existing obligation security on a consumer’s principal
dwelling is a transaction. The right of rescission
applies only to the addition of the security interest
and not the existing obligation. The interest in
property is: automatically negated, regardless of its
status and whether or not it was recorded perfected.”
§ 226.15(d)(1); 226.23(d)(1) (enhanced added)
(Official Board Commentary to Reg.Z)
It proves the 11th Circuit twice (in Nov. 10, 2014
affirmance and in Opinion below) conflicts with this
Courts numerous times emphazing the importance
of the plain meaning rule, stating that if the
language of a statute or regulation has a plain and
ordinary meaning, courts need look no further

17
should apply the regulation as it is written.” In most
cases, a textual reading will be dispositive., United
States v.Ron Pair Enters.,Inc.,4:89U.S.235,242
(1989).
Thus, contrary to the position of the ll1;hCircuit
(A8) and the district court(A2l) and Bana(A46) a
federal loan is not a single contract as it includes the
Note and mortgage but only security interest and
fees were void upon rescission. The issue of fact, the
private non*judicial mortgage rescission may not be
revived by subsequent events, unless courts’
intervention timely occurs within 20 days from the
receipt of rescission notice and occur upon the
initiative of the creditor. See s. 1635(b), which void
the mortgage only but not the debt on the Note.
The district court and the llthCircuit, in conclusory
findings, failed to give TILA law the required of textbased analysis to consider that the mortgage
transaction is distinctive from common contract law.
The Eleventh Court,did not penalize Williams for
making post-rescission payments. The Maduras had
every reason expect that the TILA statute meant
what it said regarding tender. Their payments, of
the principal balance on original note signed at
closing would not amount to a ratification of CHL
silence or its failure to participate in statutory
process under s.(b). This clearly show that the 11th
Circuit failed to address TILA and Commentary and
conflicts with Kontrick v.i?yan,540.US.(2004).443
(by failing to give this law the required
sort of text-based analysis.
However,the Eleventh Circuit decided for the
third time(including Opinion below) an important
question not settled by federal TILA law that has
not been, but should be, settled by this Court. The

18
issue presented in this petition is a matter of
national importance.i.e.as the Williams and Maduras
cases. Some circuits apparently followed or still may
follow the Eleventh Circuit’s erroneous
interpretation of the TILAstatutes. As this issue was
never decided by this Court, this Court should
determine the proper“interpretation“of the TILA
rescission statutes. This Court, in Jesinoski, cleared
the circuits’ interpretations on some issues of the
TILA statutes, however other parts of TILA are still
being misapplied resulting in losses of the borrowers’
properties, as it happened here. To effectuate TILA’s
purpose, a court must construe ‘the Act’s provisions
liberally and requires absolute compliance by
creditors,Hauk v.JPMorgan Chase BankUSA,5b2
F.3dl 114(91hCir.2009,/t/ atlll8.
II. The district court and the llthCircuit failed to
require proof of the challenged subject matter
jurisdiction, despite the rule that, once challenged,
subject matter jurisdiction must be proven.
Man v. Thiboutot, 100 S .Ct. 2502(1980)
Based on both Courts’ failure to prove challenged
SMJ over foreclosure of void mortgage,which once
challenged must be proven and this Court’s decisions
in Jesinoski, the Maduras, filed March 18, 2018 Rule
60(b)(4) motion for relief from void order, and the
Memorandum of Law as to thisCourt’s and circuits’
requirements for the exercising SMJ. Judge
Covington’s order failed to prove SMJ(A9)
”[A] court has jurisdiction to determine its own
jurisdiction. US. v. United Mine Workers ofAm., 330
U.S.258, 292(1947). Here, the district court had only
juridiction to determine that it lacked SMJ.

19
“When a district judge exercised supplemental
jurisdiction over state-law claims, state law governs
substantive issues
”,McDowell v.Brown 392F3d
1283,1294(llth Cir.2004). Further, the district
court’s basis of jurisdiction over state foreclosure
action is futile as barred by this Court’s decision
in Daimler Chrysler Corp. v. Cuno, 547 U.S. 332
(2006) (dismissing for lack of standing) holding:
“Supplemental claim must satisfy the Articlelll
doctrines of standing,” Further, the district court
purportedly attempted to “decide” the efficiency of
the Maduras’ rescission notice (“the Maduras’ notice
was not a proper”)(A8), but ventured outside the
scope of the pleadings given the fact that Bana’s
counterclaim lacked even a remark as to loan
rescission or SMJ. The Florida appellate courts are
well settled that: “A court may not enter an order
outside the scope of the pleadings “, Lovett v.
Lovett, 112 So.768(Fla.l927),and other DCAfollow.
The district court, and the llthCircuit, failed to
prove SMJ,and are in direct conflict with this Court’s
requirements Justice William Rehnquist’s Canons of
Statutory Construction. Each statutory provision
should be read by reference to the whole act.
John Hancock Mut.Life Ins Co.v. Harris Trust
&Sav.Bank,114 S.Ct.517,523(l993)(Pg.93'97);
“Preponderance of the evidence standard applies in
civil cases”Grogan v.6r<3.raer,498U.S279,286(l99l);
’’Prove on the record all jurisdiction facts related
to the jurisdiction asserted” Town ofLantana,
Fla. v. Hoppe,102¥ .2&118(5thCir. 1939);
"Follow statutes, as statutory provisions have the
same import as provisions governing subject matter”
Kontrick v.i?yan,540U.S.(2004). The 11th Circuit’s

20

per curiam Opinion failed to follow Kontrick and did
not prove the district and own SMJ:
A. Countrywide refused to rescind the loan”(A2).
Neither Julyl 7,2001 CHL letter contains refusal or
synonym(A48) nor was a response to May 23,2001
notice. The Comptroller of Florida Investigation on
June 4,2001 directed CHL respond to #CP01500483
(A47)’s failure to deliver to the closing CHL’s forged
Note&TILA with prepayment penalty(Pg.5n2 above);
B.“Argument that the Maduras had rescinded their
loan were barred...because they had already pursued
them in Madurai their first action in Florida state
court,”Id at517-18 (A3) is misleading. MaduralSJ
evidences NO Maduras’ rescission claim nor
adjudicating them(A21‘30). Madura2SJ: ’’Plaintiff
did not sue for rescission until she filed suit in this
court in Nov.2006”2008 WL 2856813,(M.D.Fla)A/7i
”Mrs.Madura did not sue for rescission in Madurai”,
593,F/App’x,834(llth.Cir.2014),/d»43’/
C. The affirmance of SJ of foeclosure is in direct
conflicts with its Aug. 2017 Waisome v. JPMorgan
C'izas,&5'«m&A£4eM,No.l6'1653(Doc.85'10912-007z)
(“[Rjescission is [timely] effected when the borrower
notifies the creditor of his intention to rescind
[TILA] does not also require him to sue ...);
D. Opinion below held that Madura 2 granted SJ in
favor of BOA(A3) while its affirmance of SJ
of foreclosure held that Madura 2 granted SJ
in favor of Countrywide,593,¥.Ap^.at838.
E. The llthCircuit‘s pssages of “significant higher
standard“contradicts its de novo reviewed.
The affirmance of the Madura SJ, where Madura 2
ruled against Mrs.Madura because she did not raise
rescission claims in state action directly conflict with
Jesinoski private non*judicial loan rescission under

21
the Act not requiring a lawsuit, and same Opinion
below and Waisome(A8). However, the same Madura
2SJ directly conflicts with the same Opinion below
holding that Mrs .Madura’s loan rescission claims
are barred by collateral estoppel or res judicata
as she pursued them in Maduras’ first action in
Florida(A3). Opinion behold Madura2 granted SJ in
favor of BOA(A3) but affirmance of SJ held that
Madura2 granted in favor of CHL,583,FAppx,a£&?&
This Court, in Standefer v. v. U.S.,447,U.S. 10(1980,
provides standard:
“[[Inconsistency [was] reason, in itself, for not giving
preclusive effect and makes clear, collateral estoppel
“is premised upon an underlying confidence that the
result achieved in the initial litigation was
substantially correct.”^ n. 18; seeRestatement
(Second) of Judgments§29 cwt.(l982):
“Where a determination relied on as preclusive is
itself inconsistent with some other adjudication of
the same issue, that confidence is generally
unwarranted, (explaining rationale for rule that non­
mutual collateral estoppel does not apply when the
judgment that would be given preclusive effect is
inconsistent(Pg. 13).
III.The district court’s denial of the Maduras’ motion
to dismiss for lack of SMJ, and 11th Circuit’s
affirmance is arguable without merits clear
and egregious usurpation of judicial power,and
thereby creates irreconcilable conflict with other
circuits and this Court's decision in Jesinoski on the
efficiency of the TILA rescission notice given by the
petitioners.

22

To Aug.27,2012 motion to dismiss with prejudice the
Bank’s Foreclosure Counterclaim for lack SMJ,and
for CHL’s failure respond, the Madura attached their
their May 23, 2001 rescission notice(A39’43) and
CHL’ May 29,2001 return receipt(A38). They argued
violation of thel2.F.C.R.s.226.23(d)(2) TILA,and
firstllthCircuit precedent Williams v.Homestake
Afor^v968F2d.ll37(llthCir.l992) that rescission
notice must be sent to the Creditor and:“Rescission
is automatic upon the consumer’s notice.” Id.atl 141.
ThellthCircuit aiiirmediAfaduras v.CHL 344F.Appx
509(11th.Cir.2009)) the direct precedent as to
Maduras’ Rescission Notice in Maduras v. CHL et al,
2008WL 2856813 M.D.Fla) Final SJ:
”A consumer can exercise herrights to rescind simply
by notifying the creditor of the rescission in awritten
comunicationl2C.F.R.§226.23(a)(2) (to exercise the
right to rescind, the consumer shall notify the
creditor of the rescission by mail, telegram or other
means of written communication). Here the letter
demanding invalidation of the forged mortgage sent
to Countrywide in May 2001 arguably was such a
written communication notifying the lender of the
Maduras’ intent to rescind the mortgage loan, and
such was made within three-years period after the
closing. To the extent that the letter sought
invalidation of the mortgage agreement it was
ignored by Countrywidel’Idatll. Countrywide failed
to forward disclosure and ignored the demand to
invalidate agreement,Idat3.
CFPB Bureau’s Notice of Right to Cancel provides
how to cancel: You may use any written statement
that is signed and dated hyyou and states your
intention to cancel, or you may use this notice. ”

23

Judge Covington, denied the Madruras’ motion to
dismiss challenging her SMJ, holding: “The letter
does not do is mention TILA or accomplish rescission
In addition, the letter makes no mention of Bank of
America the counterclaimant and the Maduras failed
explain why the letter to Countrywide would affect
the rights of Bank of America in this action.”(A20).
However, the 11th Circuit affirmed it in violation of
the plain text of s.1635(b) and s.226.23(d)Reg.Z and
created conflict with majority of the Circuits and
with this Court’s decision in Jesinoski.
Judge Covington’s Order, conflate all §1.635etseq
TILA provisions that govern the way how borrower
may exercise loan rescission!
a) Her statement: “the letter does not do is mention
TILA” is barred by letter mentioning created by
CHL undelivered to the closing TILA SIX TIMES
and demanded produce it as it may be forged as the
Note. TILA forgery was undisputed(Pg.5n 2 above)
and judicially noticedDE71,171,410! 477'1,523*1)
b) Jesinoski found that nowhere does § 1635(a)
allow for a debate as to disputed or undisputed
notices -'at793>
c) Statement'-”letter failed mention BANA”(or sent
to BANA) is inapposite. Judge Covington held that
BANA for the first time appeared on April 30,2009
when allegedly purchased subject loan(A5);
d) explainng federal Judge why loan rescission
An ipse dixit this district Judge’s reasonings
devoid of any analysis and are insufficiant as a
matter of law egregious for SMJ and without
arguable merit, Student Aid Funds, Inc. v.Espinosa,
130S.Ct.U.S.(2010)a£A?77.

24

The 11th Circuit affirmed this fundamental
misconception of 15USC §1635(a)(b) on plenar
appeal and in post'Jesiniski Nov.23, 2015 Opinion^
“After defaulting on a loan from BACHome Loans
Serv.,which later merged with and into Bank of
America NA.(BOA), the Maduras sued BOA(A10‘
12)....“ [T]he issue involved in the Maduras’
rescission claim was not whether they needed to file
a lawsuit to rescind their loan, but rather, whether
they notified BOA that they intended to rescind.
Jesinoski would not have affected this issue, nor any
of the other issues involved in their case.Because the
Maduras’ appeal is without arguable merit, their
motion for IFPstatus is DENIED.” Maduras v BAC
Home Loan Serv L.P., No.:l5-12925 (11/23/2015).
1. The Maduras obtained July 26,2000 loan from
FSLnot BACHome Loan Serv.L.P originated in 2009
2. The Maduras never defaulted and were current
also after loan rescission, In Nov ,2006 default they
sued CHL not a stranger BOA(Bana).
Under the Eleventh Circuit’s view, borrowers’
rescission notice timely sent to the lender and
effecting loan rescission e.g.voiding the mortgage per
the TILA statutes and this Court’s decision in
Jesinoski would revive void mortgage because it
should be sent to a stranger Bank who has no
connection to borrowers* loan but who in future
would like to foreclosure the borrowers’ lacking
security interest home despite the lender was in
section § 1635(b) statutory default for failure to .

25
follow its 20day rescission mandate. The 11th
Circuit’s position negates the TILA’s effectiveness
which is a violation of the Maduras’ due process
rights under the 14th Amend, to U.S. Const.because
other borrowers living in other circuits did not lost
homes as per TILA sent the lender their rescission
notices as did the Maduras. The district court’s
nonsensical decisions and the Eleventh Circuit same
by affirming it in Opinion below conflicts with
almost all circuits’ decisions on the same issues,few
cited below due to word limit:
1) Sherzer v.HomesteadMortg.Serv.,707F.3d255,
(3rd.2013) recognizing that the right of rescission is
exercised by sending the creditor notice;
2) Jesinoski”No doubt that rescission is reffected
when the borrower notifies the creditor of his
intention to rescind.”, Jesinoski at792;
3) ’’When lender would not respond within twenty
days to the notice if rescission, the ownership of the
property vests in borrowers.§1635(b).’’CSfen/ey v.
Americorp Credit Corp, 164 F.Supp.2d 578, 584(D,
Md.200l);
IV. The Eleventh Circuit’s affirmation violated the
Maduras’ due process rights under the 14th Amend,
and is also in direct conflict with this Court's
decisions that a person not a party to judicial
proceedings may not be bound by its outcome
The 11th Circuit affirmed in inconsistent opinions
numerous violations of Florida’s substantive law
Judge Covington, presiding, rested on supplemental
jurisdiction over foreclosure of the Maduras’ private

26
principal dwelling without any compliance with
Florida substantive law.
Judge Covington, judicially notified certified copies
of the transcript from this hearing and of forensic
reports and sets forged Note and TILA and original
Note and TILA signed by the Maduras at loan
closing(DE7i;410;477-i;523-l) and
MaduralSJhearing,where trial court held:“[T]he
Jury would have to decide exactly decide exactly
exactly what documents were signed or not signed at
the time of the closing.”(A29).
Trial Judge granted SJ in CHL’s favor as to Mrs.
Madura's claims(Mr.Madura had no day in courts
until underlying foreclosure) but“remained” “factual
dispute” raised in her CrossSJmotion on CHL’s
liability for creation of not delivered to loan closing
forged Note and TILAdisclosure containing not
genuine forged the Maduras’ signatures(A26).
Prior SJ of foreclosure NOassignments of the
mortgage was recorded in the public record
transferring beneficial interest in this loan to any
entity specifically to Bana. On Feb.2, 2015 Bana
recorded the MERS Assignment of Mortgage
precluding its May 2, 2012 foreclosure counterclaim
and July 13, 2013 SJ of foreclosure.
See BACFunding v. Jean c/ac<7ues,28So.3d936
(2010): “U.S.Bank failed to establish its status as
legal owner and holder of the note and mortgage, the
trial court acted prematurely in entering final
summary judgment offoreclosure in favor of U.S.
Bank. We therefore reverse final SJ foreclosure.
On July 2, 2013 the Maduras requested Judicial
Notice of June 7, 2013 Florida Supreme CourtBILL,
SC/CS HB 87(DE484) and filed a motion to dismiss

27
ownership of void mortgage to Merrill foreclosure for
the district court continuous violations of Florida
substantive law. On June 17, 2013,Bana sold alleged
ownership of void mortgage to Merrill Lynch ]Asset
Holding Inc. This precluded SJ of foreclosure.
On Feb.26,2016 Bana bought for $100.00 the
Maduras’ home without notifying them of foreclosure
sale ordered by Judge Covington to conduct byUS
Marshall’s in violations of 28U.S.C.§ 1963, Rule Fed
R.of Civ.Pr. and Fla.substantive statutory law.4The
Maduras due to newly discovered evidence filed
motions to stay foreclosure sale(Doc.668-669) with
Jan. 16,2015 assignment of the mortgage to Bana
(A55) and Aug 1,2016 Fannie Mae’s disclose of since
loan closing an exclusive ownership of subject loan
(A50,51,54). Judge Covington in denials and the
llthCir. on appeal of confirming of wrongful
foreclosure, neither considered nor rejected new
arguments based on new evidence. Judge Covington,
three years after entering SJ of foreclosure, entered
upholding statutes order of sale of the property
which was the subject of the void mortgage.
The 11th Circuit based its affirmance of SJ of
foreclosure upon: ’’Collateral estoppel bars the
Maduras from relitigating all claims that they raised
or could have raised in their initial state-court action
whether they had
including the following issues:
4 See;l) Condaire, Inc. v.AlliedPiping, Inc.,286 F.3d 353, 35758 (6thCir. 2002)(“[ pursuant to 28 U.S.C. § 1963. No federal
statute governs the means of enforcing a judgment pursuant to
the FCRA.”; 2) Florida Supreme Court mandates foreclosure
sale within 35 days from Judgment, and 3) USMD Fla. Court,
US Marshall and Bana did not notify of sale violations of the
redemption of the sale of their home.

28

rescinded the July 26, 2000 loan through the May
which was the subject of the void mortgage.
The 11th Circuit based its affirmance of SJ of
foreclosure upon: ’’Collateral estoppel bars the
Maduras from relitigating all claims that they raised
or could have raised in their initial state-court action
including the following issues:
whether they had
rescinded the July 26, 2000 loan through the May
23,2001 letter”, 593FedApp’(l 1th Cir. Nov,10,2014)
Id 843. However, it failed examine this collateral
estoppel that it was based on purported effect of
Madura2 SJ holdings in CHL’s favor as to non­
borrower Mrs.Madura’s rescission claims: ’’Plantiffs
rescission claims would be time barred because they
were not brought within 3 years of consummation of
the morgtage loan.”.......
“To the extent that the letter sought the invalidation
of the mortgage agreement it was ignored by
Countrywide. Plaintiff, however did not sue for
rescission until she filed suit in this Court in Nov.
2006.”, FAppx. 2d2008 WL2856813 (M.D.Fla.)/c/ii
(enhanced added). The Eleventh Circuit’s collateral
estoppel basis for its affirmance of SJ of foreclosure
is in direct conflict with this Court’s decision in
Jesinoski’- “Rescission is effected when the borrower
notifies the creditor of his intention to rescind.,... the
statutes does not require him to sue.” Jesinoskild
792. Thus, Mrs. Madura did not need sue for decade
earlier effected non-judicial private loan rescission
under the TILA Act, as such lawsuit should be
dismissed, because prior to foreclosure she and Mr.
Madura did not incur the damages required for
suing CHL for its § 1635(b) statutory default as to

29
loan rescission by ignoring the rescission notice and
its obligation mandated by thereof. Further, a
private nonjudicial letter of intention to rescind is
not judicial cause of action, whereby, NO judicial res
judicata and collateral estoppels applied until the
lender would initiate a suit in case it determine that
the loan rescission was incorrect. See: ”TILA
rescission at law procedures based on a notice and
“the bank [’s] [obligation] to file suit to essentially
prevent rescission ’’(Consumer Financial Protection
Bureau’s Amicus Brief in Jesinoskb.
In compare to its erroneous affirmance of
foreclosure the Opinion below affirming denial of
the Maduras’ Rule 60(b)(4) motion for relief from
violating the Maduras’ Due Process Rights SJ of
foreclosure entered without SMJ over lacking
security interest Bana counterclaim of foreclosure,
■ held: ”In Madura 2 the district court....granted
summary judgment in favor of BOA on DolinskaMadura claims, Madura v. Countrywide Home
Loans, Inc., 334 F.App’x 509, 513 (llth Cir. 2009).
On appeal we concluded that Doliska-Madura’s
....arguments that Maduras had rescindeed their
loan were barred by the doctrines of res judicata and
collateralestoppel, because they had pursued them
in Madura 1, their first action in Florida state court.
Id at 517-518 App. at 3).
By the inconsistency of erroneous affirmance of SJ
of foreclosure and with its erroneous Opinion below
containing ipse dixit reasoning devoid of substantive
analysis(compare text in bold) the llth Circuit did
not prove challenged district court’s and its own
SMJ. The llth Circuit, being, apparently, unable to
rebut the Maduras’ based on clear TILA’s and
Jesiniski‘s arguments raised in Rule60(b)(4) motion,

31
IB and RB, departed from the accepted and usual
course of judicial proceedings by holdings: l)”in
Madura2, Madura v. Countrywide Home Loans Inc.,
the Court granted SJ in favor of Bana(A3)(Bana was
not a party to this SJ and even not a privy with
CHL prior to merger) and:
2) arguments that the Maduras rescinded their loan
..were barred ...because they had already pursued
them in Madura 1, their first action in Florida state
court”( App. at 3) The set forth above court record is
contrary as well as its affirmance of SJ of foreclosure
Accordingly, to the extent that the llthCircuit failed
prove the district and its SMJ, it again violated the
Maduras due process rights in erroneous deprivation
of their principal dwelling. Its exchange CHL with
not privy Bana in Madura 2SJ and its twisting the
record that the Maduras already pursued with loan
rescission in state Madura 1 (while borrower Mr.
Madura due to arbitration had NO a day in court
until foreclose), and Mrs.Madura never claimed loan
rescission in Madura 1, see Madura SJ(App.at 21-30)
is improper and futile the 11th Circuit’self defense
against the Maduras’ on June 18, 2001 executed loan
rescission. New the 11th Circuit somehow attempt
impress a reader that the Maduras’ Notice of loan
rescission should be sent to stranger Bana not to
creditor CHL ,as it, since this Court’s decision in
Jesinoski, in such nonsensical way, changed its
basis for an erroneus deprivation the Maduras’ home
Since May 23, 2001 notice CHL in state Madurai
and federal Madura 2 actions, the courts nor Bana
until SJ of foreclosure, never disputed the Maduras’
loan rescission.
The district court was aware of since 2009 through
2014 affirmance of SJ of foreclosure of the 11th

32

Circuit’s continuing the inconsistancy its Opinions
and double standard as to Pro Se Maduras’ on June
18, 2001 effected loan rescission. See Opinion below
aligning with this Court'” Jesinoski clarified that the
TILA allows an obligor to rescind by notifying the
creditor within the statutory period of the onbligor
intent to rescind but does not require the obligor to
sue within that timeframe.”(App at 8). The 11th
Circuit, in same Opinion, affirmed dismissal with
prejudice citing its SJ of foreclosure’s affirmance
upon directly conflicting the TILA and Jesinoski
collateral estoppel's effect of Madura 2 S J against
Mrs.Madura because she purpotedly failed to sue for
loan rescission in state MaduraL ” See Madura, 539
F.App’xa£ 841-50...We. affirmed that....rescission
arguments were barred by res judicata and collateral
estoppel (App.at5).
After many inconsistent 11th Circuit’s Opinions on
the same issue of outlined in this pettion this last
May, 15, 2019 inconsistent Opinion below violated
again the Maduras due pricess rights under the 14th
Amendment to US Constitution, as the subject
matter jurisdiction over deprivation of the Maduras’
petitioners property home must be consistent with
due process,Pennoyer v.Neff, 95U.S.714(1878). The
11thCircuit since,the first its 2009 Opinion in,
Madura2,continously violated of the Mr.Madura’s
Due Process Rights to wit:
On Aug.2, 2002 state court compelled Mr. Madura,
the only borrower, in this action to abitrate the loan
rescission and other claims in National Arbitration
Forum(NAF) ”
Since that time until 2012 foreclosure courts did not
allow him a day in court until the 2002 foreclosure.

33

The 11th Circuit’ based of the said affirmance on:
“Since Mr .Madura had to arbitrate those claims
(including loan rescission) the doctrine of collateral
estoppel precluded the judge in this case from
adjudicating those claims on the merits f (Maduras v.
BACHomeLoanServ. etai,593F.Appx.834(2014)at844.
This is a plain error directly violating Mr.Madura’s
due process rights under the 14th Amendment to US
Const, as this (wrongful) foreclosure was excluded
from the arbitration agreement, whereby, the judge
in foreclosure was not precluded from adjudicating
borrower Mr .Madura’s rescission claims in defenses
wrongful foreclosure of private residential dwelling.
The 11th Circuit is in direct conflict with this
Court’s decisions in in Richards v. Jefferson
County, 517U.S793(l996):“One is not bound by a
judgment in personam in a litigation in which he is
not a party.”
The Maduras preserved these arguments on
plenar appealNo.l3_13953(RB at 3‘7;IB atl2-14) in
petition to recall mandate(App.at 5) and IB on
appeal below).The district court and 11th Circuit
never adjudicated nor rejected them. Mrs .Madura's
fraud claims, were dismissed as ’’she did not incur
damages.(Appat26). In foreclosure both Maduras
incurred them. Her raised in a Motion for Partial SJ
as to forgery of both Maduras’ full dated signatures
on the TILA and Mr.Madura’s initials on the Note
were not ruled as Madurai state Court in SJ
hearing, held:”Is’nt that what the jury would have to
decide, exactly what documents were signed or not
signed at the time of the closing”(App.at29). In
SJOrder on Cross SJ motions the Court decided
”A factual dispute (of forgery) remains”(A26).

34
These Mr.Madura’s arguments were preserved in
lower court and on appeal (No.l3_13953TB atl2-14,
RB3-7), and in petition to recall mandate( atl5). The
district and the Eleventh Circuit never adjudicated.
In summary, the previous affirmance and affirmance
below evidence the 11th Circuit in direct conflict with
28 U.S.C.1652: “Except in matters governed by the
Federal Constitution or by Acts of Congress, the law
to be applied in any case is the law of the State,Erie
R Co. v.7b/n/?^/72s,304,U.S.64,(l938),a^75. Thellth
Circuit failed consider that affirmance of denial of
Rule 60(b)(4) motion for relief from void judgment of
foreclosure of void mortgage violated substantial
Florida law while this Court announced a bifurcated
test to evaluate state statutes under the Erie doctrine
Petitioners Present a Prima Facie Case
Establishing a prima facie case of the magnitude of
violation of due process, requires of the deprivation
of a constitutional or federal statutory right, a causal
connection between the actor and the deprivation,
and state action. Sanchez v.Pereira-Castillo,590F.3d
31,4l(lstCir.2009) It is clear it happened here:
A. In this case,the district court, violated the
Maduras’ constitutional and federal statutory rights
by the failure to find a due process violation
resulting from her entry, of a foreclosure judgment
against the Maduras at a time when that court
lacked SMJ to foreclose a mortgage previously
voided pursuant to the statutory language of TILA
as reaffirmed in this Court’s decision in Jesinoski.
The Eleventh Circuit did the same by affirming
thereof. Seein Opinion below its inconsistent order
on this central issue(Al_9).

35
B. As is set forth in this petition, the district
court, and the Eleventh Circuit, violated the
Maduras’ constitutional and federal statutory due
process rights under the 14lhAmendment to US
Constitution by entering and affirming foreclosure
judgment, an erroneous deprivation of their
residency dwelling and evicting them from for the
last 30 years their only homestead at a time when
the former court lacked subject matter jurisdiction to
foreclose a mortgage previously voided pursuant to
the statutory language of TILA as reaffirmed in this
Court’s decision in Jesinoski.
C. The district court violated borrower Mr.
Madura’s constitutional and federal statutory rights
under the 14th Amendment to US Constitution by
failing, to observe this Court’s decisions that he, as a
not a party to MaduralSJ state and federal Madura
2SJ federal judicial proceedings, may not be bound
by their ‘outcome, a wrongful foreclosure judgment of
an erroneous deprivation of his private property and
the he llthCircuit, by the affirmance thereof
violated the same. See Opinion below containing as
is set forth above, its inconsistent decisions violating
the TILAstatutes and this Court’sJesinoski.
The Decision Below, apparently unknowing,
Misconstrues the Due Process Clause of the
Fourteenth Amendment
A review of the Eleventh Circuit’s departure from
traditional practice raises a serious question of
constitutional magnitude. The constitutionality of
alleged subject matter jurisdiction over Bana’s
lacking Art.III standing counterclaim of foreclosure

36

without proper authorization, has become imminent
in the light of our jurisprudence. The district court’s
and the Eleventh Circuit’s affirmance is unfaithful
to both elementary logic and the foundations of
common law and our due process jurisprudence.
Based on the foregoing, the Maduras pro se have
stated a due process violation of such a significant
magnitude that the affirmance of the said dismissal
with prejudice is void. Bana and these courts never
stated a shred of evidence that there it has been
compliance with due process. Thus, the Maduras Pro
Se have alleged a reviewable constitutional case that
is “plausible on its face.” Ashcroft v.Iqbal,556 (U.S.)
662,678,(2009). For the foregoing reasons, the
petition for writ of certiorari should be granted.
The Petition presents court conflicts on legal
issues of exceptional importance to the nation’s
consumers.
The general issue is whether TILA rescission is
“effected” upon timely notice, as this Court held in
Jesinoski v. Countrywide Home Loans, Inc., 135 S.
Ct. 790 (2015), triggering mandated lenders’ action
which, if not performed, void the lender’s security
interest. Under the Eleventh Circuit’s view,
borrowers’ rescission notice timely sent to the lender
and effecting loan rescission e.g. voiding the
mortgage per the TILA statutes and this Court’s
decision in Jesinoski would revive void mortgage
because it should be sent to a stranger Bank who has
no connection to borrowers' loan transaction but
who in future would like to foreclosure the
borrowers’ lacking security interest home despite the
lender was in section § 1635 (b) statutory default for
failure to follow its 20-day rescission mandate. The
11th Circuit’s position negates the TILA’s

37

effectiveness which as well its continuous violations
of the Maduras’ due process rights under the 14th
Amend.to US.Const, rights and its since decade
continuing the improper inconsistency in its
Opinions as to 15 U.S.C.TILA 1601 et seq Statutes.
CONCLUSION
For the foregoing reasons and those stated in the
Petition for a Writ of Certiorari, the Petition should
be granted.
Respectfully submitted on August 12, 2019 by pro se^
Andrzej Madura and Anna Dolinska-Madura

